Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 HOME AND COMMUNITY-
BASED SERVICES IN ASSISTED
    LIVING FACILITIES




                    Daniel R. Levinson
                     Inspector General

                     December 2012
                     OEI-09-08-00360
EXECUTIVE SUMMARY: HOME AND COMMUNITY-BASED
SERVICES IN ASSISTED LIVING FACILITIES, OEI-09-08-00360


WHY WE DID THIS STUDY

Under the 1915(c) waiver, the Centers for Medicare & Medicaid Services (CMS) may waive
certain requirements to allow State Medicaid programs to cover home and community-based
services (HCBS) for beneficiaries residing in assisted living facilities (ALF). However, little
information exists about the HCBS furnished to beneficiaries in ALFs, the costs of those
HCBS, or the extent to which those HCBS are furnished in compliance with Federal and
State requirements.

HOW WE DID THIS STUDY

To identify the costs and types of HCBS covered under 1915(c) waivers for Medicaid
beneficiaries residing in ALFs, we surveyed and collected claims data from 35 State
Medicaid programs. From these 35 States, we selected the 7 States with the highest numbers
of beneficiaries receiving these services in ALFs: Georgia, Illinois, Minnesota, New Jersey,
Oregon, Texas, and Washington. Using claims data from these 7 States, we selected a
random sample of 150 beneficiaries. To determine the extent to which Medicaid programs
complied with Federal and State requirements for HCBS furnished under the waiver, we
reviewed State survey agency inspection reports for ALFs in which beneficiaries from our
sample resided. We also reviewed plans of care associated with the sampled beneficiaries.
The period of our review was 2009.

WHAT WE FOUND

In 2009, 35 Medicaid programs reported that, under 1915(c) waivers, they covered various
HCBS for beneficiaries in ALFs at an annual cost of $1.7 billion. Each State had federally
mandated provider standards; however, ALFs in the seven selected States did not always
comply with them, and federally required plans of care did not always meet Federal
requirements. In the seven States, 77 percent of beneficiaries received HCBS under the
waiver in ALFs cited for a deficiency with regard to (i.e., noncompliance with) at least one
State licensure or certification requirement. Nine percent of beneficiaries’ records did not
include plans of care required by the States. Further, 42 percent of the federally required
plans of care did not include the frequency of HCBS furnished, as required. Five of the
seven States also required that plans of care specify the beneficiaries’ goals and the
interventions to meet them. In these 5 States, 69 of 105 plans of care for beneficiaries
receiving these services in ALFs did not meet that requirement. Two of the seven States also
required that plans of care be signed by beneficiaries or their representatives. In these
2 States, 12 of 25 plans of care for beneficiaries receiving HCBS in ALFs did not meet that
requirement.

WHAT WE RECOMMEND

We recommend that CMS issue guidance to State Medicaid programs emphasizing the need
to comply with Federal requirements for covering HCBS under the 1915(c) waiver. CMS
concurred with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................12
           In 2009, 35 State Medicaid programs reported that they
           covered HCBS for beneficiaries in ALFs at an annual cost of
           $1.7 billion .....................................................................................12
           Provider standards existed in the 35 States; however, ALFs in
           the 7 States with the highest numbers of beneficiaries receiving
           HCBS in ALFs did not always comply with those standards, and
           plans of care did not always comply with Federal requirements ...13
Recommendation .......................................................................................17
           Agency Comments and Office of Inspector General Response.....18
Appendixes ................................................................................................19
           A: Confidence Intervals ................................................................19
           B: Agency Comments ...................................................................20
Acknowledgments......................................................................................23
                   OBJECTIVES
                   1. To identify the costs and types of home and community-based services
                       (HCBS) covered under the 1915(c) waiver for Medicaid beneficiaries
                       residing in assisted living facilities (ALF).
                   2. To determine the extent to which State Medicaid programs complied
                       with selected Federal and State requirements for HCBS furnished
                       under the 1915(c) waiver.

                   BACKGROUND
                   In recent years, State Medicaid programs have attempted to expand
                   long-term care options for beneficiaries while reducing spending for
                   institutional long-term care, which is provided primarily in nursing
                   facilities. 1 ALFs can provide a housing alternative to institutional care for
                   individuals who prefer to live independently but need assistance to
                   maintain their independence.
                   State Medicaid programs cover HCBS for beneficiaries residing in ALFs
                   under several authorities. Although ALFs are not defined in Federal health
                   care law and regulations, a congressional workgroup 2 defined them as
                   “State regulated and monitored residential long-term care options that
                   provide or coordinate oversight and services to meet the residents’
                   individualized scheduled needs, based on the residents’ assessments and
                   service plan and their unscheduled needs as they arise.” 3 The term “ALF”
                   may include facilities referred to as “adult foster homes” or “residential
                   care facilities.” Residents of ALFs may include Medicaid beneficiaries as
                   well as nonbeneficiaries (i.e., private payers).
                   HCBS may include case management services, homemaker services,
                   personal care services, home health aide services, and other services
                   necessary to avoid institutionalization.4 Homemaker services consist of
                   housekeeping, laundry, and meal preparation, whereas personal care


                   1
                     U.S. Department of Health and Human Services, Assistant Secretary for Planning and
                   Evaluation, Understanding Home and Community Services: A Primer, October 2000.
                   Accessed at http://aspe.hhs.gov/daltcp/reports/primer.htm on January 16, 2009.
                   2
                     In 2001, at the request of the U.S. Senate Special Committee on Aging, approximately
                   50 organizations representing providers, consumers, long-term care and health care
                   professionals, and regulators formed the Assisted Living Workgroup to develop
                   recommendations to ensure quality in assisted living.
                   3
                     Assisted Living Workgroup, Assisted Living Workgroup Report to the U.S. Senate
                   Special Committee on Aging, 2003, p. 12. Accessed at
                   http://www.theceal.org/assets/PDF/ALWReport-Definition-and-Core-Principles.pdf on
                   May 7, 2010.
                   4
                     42 CFR § 440.180(b).

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                           1
                   services consist of assistance with activities of daily living and
                   supervision. Activities of daily living typically include, but are not limited
                   to, bathing, dressing, using the toilet, and walking. Home health aide
                   services consist of some nursing assistance, such as medication
                   management and checking pulses and blood sugar levels. These services
                   are designed to help older individuals and individuals with disabilities to
                   continue living at home or in other noninstitutional residential community
                   settings, such as ALFs. 5 HCBS may be furnished by individual providers
                   and/or agency providers, such as ALFs. 6
                   State Medicaid programs cover HCBS for beneficiaries residing in ALFs
                   under their State Medicaid plans, 1915(c) waivers, 7 or section 1115
                   research and demonstration waivers. 8 Of the three methods, the
                   1915(c) waiver is the most common. In 2009 (the period of our review),
                   37 Medicaid programs covered HCBS in ALFs under the 1915(c) waiver,
                   13 programs used their Medicaid State plans, and 4 used the section 1115
                   research and demonstration waiver. 9, 10
                   Between 2002 and 2009, the number of beneficiaries receiving HCBS in
                   ALFs under the 1915(c) waiver and section 1115 research and




                   5
                     HCBS may also be furnished in noninstitutional settings, such as adult day health
                   centers and day treatment centers.
                   6
                     Centers for Medicare & Medicaid Services (CMS), Application for a § 1915(c) Home
                   and Community-Based Waiver [Version 3.5]: Instructions, Technical Guidance and
                   Review Criteria (Application), January 2008, p. 136.
                   7
                     The 1915(c) waivers allow State Medicaid programs the flexibility to cover a wide
                   range of HCBS through the waiver of certain State plan requirements. Under section
                   1915(c), CMS may waive the following requirements: (1) Statewideness—States may
                   cover services in only a portion of the State, rather than in all geographic jurisdictions;
                   (2) comparability of services—States may limit HCBS waiver services to individuals in
                   State-selected target groups who require an institutional level of care; and (3) certain
                   financial eligibility requirements—States may use more liberal income requirements for
                   persons receiving HCBS. See Social Security Act (SSA) § 1915(c)(3); CMS,
                   Application, January 2008, pp. 5-6.
                   8
                     Waivers under section 1115 of SSA allow Medicaid programs the flexibility to design
                   and improve their Medicaid and Children’s Health Insurance Programs. CMS,
                   1115 Waiver Basics. Accessed at http://medicaid.gov/Medicaid-CHIP-Program-
                   Information/By-Topics/Waivers/1115/Section-1115-Demonstration.html
                   on June 15, 2012.
                   9
                     Robert L. Mollica, State Medicaid Reimbursement Policies and Practices in Assisted
                   Living (prepared for the National Center for Assisted Living and the American Health
                   Care Association), September 2009, p. 7. Accessed at
                   http://www.ahcancal.org/ncal/resources/Documents/MedicaidAssistedLivingReport.pdf
                   on October 19, 2011.
                   10
                      The total number of State Medicaid programs exceeds 50 because 6 of the programs
                   cover HCBS in ALFs both under their State plans and under waivers.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                                2
                   demonstration waiver increased 122 percent. 11 Although the population of
                   Medicaid beneficiaries in ALFs has seen significant growth in recent
                   years, little information exists about HCBS furnished to beneficiaries
                   residing in ALFs and the costs of those HCBS. In addition, little is known
                   about the extent to which HCBS are furnished in compliance with Federal
                   and State requirements.
                   HCBS furnished under the 1915(c) waiver. The 1915(c) waiver allows
                   State Medicaid programs flexibility through CMS’s waiver of certain State
                   plan requirements. Specifically, it allows these programs to cover a wide
                   range of HCBS (other than room and board) for individuals who meet the
                   Medicaid eligibility requirements for institutional care. 12 Any Medicaid
                   program that chooses to implement a waiver program must submit a
                   waiver application to CMS for review and approval. 13
                   Federal and State Requirements
                   Pursuant to Federal requirements, to be granted a 1915(c) waiver, a State
                   Medicaid program must include certain provisions in its waiver
                   application. These include, but are not limited to, assurances that
                   necessary safeguards have been taken to protect the health and welfare of
                   beneficiaries and that providers will furnish HCBS under written plans of
                   care. 14, 15 Among other things, these provisions require the following:
                            •    The safeguards must specify adequate standards for all types of
                                 providers 16 that furnish HCBS under the waiver. 17, 18 In addition,
                                 Medicaid programs must use existing State ALF licensure or




                   11
                      Because these data were available only in the aggregate, the increase in the percentage
                   of beneficiaries who received HCBS in ALFs under the 1915(c) waiver also includes
                   beneficiaries who received HCBS under the 1115 research and demonstration waiver.
                   Robert L. Mollica, State Medicaid Reimbursement Policies and Practices in Assisted
                   Living (prepared for the National Center for Assisted Living and the American Health
                   Care Association), September 2009, p. 7. Accessed at
                   http://www.ahcancal.org/ncal/resources/Documents/MedicaidAssistedLivingReport.pdf
                   on October 22, 2010.
                   12
                      SSA § 1915(c)(1).
                   13
                      Initial waivers are approved for a 3-year period and may be extended for additional
                   5-year periods. 42 CFR §§ 441.304(a) and (b).
                   14
                      42 CFR §§ 441.301(a)(1) and 441.301(b)(1)(i).
                   15
                      In their waiver applications, Medicaid programs designate an agency and/or type of
                   provider (e.g., registered nurse) that will complete the plan of care.
                   16
                      “Provider” refers to any individual or entity that furnishes Medicaid services under an
                   agreement with a Medicaid program. 42 CFR § 400.203.
                   17
                      42 CFR § 441.302(a)(1).
                   18
                      CMS, Application, January 2008, p. 137.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                           3
                                 certification requirements as the provider standards. 19, 20
                            •    The written plan of care 21 is to be based on an assessment 22 of the
                                 individual to determine the services needed to prevent
                                 institutionalization.23 Each plan of care must identify, at a
                                 minimum:
                                        o the medical and other services to be provided,
                                        o the frequency of these services, and
                                        o the type of provider expected to furnish them. 24, 25
                   State Medicaid programs’ additional waiver requirements. In their
                   applications for 1915(c) waivers, State Medicaid programs may specify
                   additional requirements for what a plan of care must include. Such
                   additional requirements include, but are not limited to:
                            •    the beneficiaries’ specific goals and interventions to meet them
                                 and
                            •    the signatures of beneficiaries or their representatives.
                   Medicaid programs must implement their waivers as specified in their
                   approved applications, including any additional requirements related to
                   plans of care. 26
                   State licensure or certification requirements. Generally, a State’s licensure
                   or certification requirements address the health and welfare of facility
                   residents, physical plant requirements, staff qualifications and training,
                   and State-required plans of care. States’ licensure or certification




                   19
                      CMS, Application, January 2008, p. 136.
                   20
                      Employees of an ALF furnishing HCBS on behalf of the ALF may also be required to
                   possess qualifications mandated under the State’s ALF licensure or certification
                   requirements or specified in the Medicaid program’s approved 1915(c) waiver.
                   21
                      42 CFR § 441.301(b)(1)(i).
                   22
                      “The term ‘assessment’ means an examination of an individual who has been
                   determined (through an evaluation) to meet the level of care requirements for
                   participation in a waiver, to determine what waiver services are needed to prevent
                   institutionalization or whether waiver services constitute an acceptable alternative to
                   institutional care.” CMS, State Medicaid Manual, Pub. 45, ch. 4 (“Services”), § 4442.6,
                   p. 4-455.
                   23
                      Ibid.
                   24
                      Ibid.
                   25
                      CMS, Application, January 2008, p. 55.
                   26
                      Ibid., p. 6.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                        4
                   requirements mandate that facilities develop and maintain plans of care as
                   part of residents’ records. 27
                   States use a variety of agencies (survey agencies) to monitor compliance
                   with State licensure or certification requirements. Survey agencies are
                   State entities authorized to set and enforce standards for Medicaid
                   providers. 28 These agencies periodically inspect facilities to determine
                   whether they comply with State licensure or certification requirements.
                   When survey agencies determine that facilities such as ALFs do not
                   comply with these requirements, they typically document such
                   noncompliance as a “deficiency,” in the form of a citation.
                   State Medicaid program assessment of compliance with 1915(c) waiver
                   requirements. In their waiver applications, State Medicaid programs must
                   describe how they will monitor the furnishing of HCBS under the
                   approved waivers to ensure that each assurance is met.
                   State Medicaid programs must describe the types of data they will collect,
                   which may include—among other things—record reviews, interviews with
                   beneficiaries and providers, and the results of licensure or certification
                   reviews. Medicaid programs must also describe their methods for
                   correcting any problems they find. The processes that Medicaid programs
                   use to monitor operations under the waiver are referred to as “discovery,”
                   and the methods used to address areas of noncompliance are referred to as
                   “remediation.” 29

                   CMS Oversight of HCBS Under the Waiver
                   CMS is responsible for determining whether State Medicaid programs
                   comply with the Federal requirements for covering HCBS under the
                   1915(c) waiver. CMS reviews the programs’ applications for waivers to
                   determine whether the applications: (1) are complete, 30 (2) include the
                   required provisions, and (3) describe how State Medicaid programs will
                   monitor HCBS furnished under the waiver. 31 If CMS determines that the
                   application includes the required provisions and describes adequate
                   monitoring systems, it may approve the waiver for a 3-year period. 32 For
                   those waivers that allow services to be furnished to individuals covered

                   27
                      CMS, State Operations Manual, January 7, 2011, Appendix PP, F279 §§ 483.20(d) and
                   483.20(k). These plans of care are required in addition to those developed by State
                   Medicaid programs pursuant to the Federal requirements.
                   28
                      SSA §§ 1902(a)(9) and 1902(a)(33).
                   29
                      CMS, Application, January 2008, pp. 10-11.
                   30
                      Ibid., p. 6.
                   31
                      CMS, Interim Procedural Guidance for Conducting Community-Based Services
                   (HCBS) Waiver Programs, 2007.
                   32
                      42 CFR §§ 441.304(a). See also 42 CFR §§ 430.25(h)(2)(i).

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                    5
                   under both Medicaid and Medicare—dual eligibles—CMS may approve
                   them for a 5-year period. 33 Existing waivers may be renewed for
                   additional 5-year periods. 34
                   CMS quality reviews of HCBS under 1915(c) waivers. CMS conducts
                   quality reviews of HCBS covered by State Medicaid programs under
                   1915(c) waivers to determine whether the programs are complying with
                   the Federal requirements. For waivers becoming eligible for renewal on
                   or after January 1, 2010, CMS begins to conduct quality reviews of HCBS
                   covered under the waivers 24 months prior to the waivers’ expiration. 35 As
                   part of these quality reviews, CMS requests that programs provide
                   documentation that the Federal requirements are being met. The
                   documentation covers programs’ monitoring activities, including any
                   actions taken to correct noncompliance. CMS reports its findings from
                   these reviews to the Medicaid programs at least 1 year prior to the
                   waivers’ expiration. This gives the Medicaid programs time to correct any
                   noncompliance prior to the waivers’ expiration. 36
                   Other Studies
                   The Office of Inspector General (OIG) conducted a separate evaluation on
                   1915(c) HCBS waiver programs that examined CMS’s oversight of State
                   efforts to ensure the quality of care furnished under such programs. 37

                   METHODOLOGY
                   Scope
                   This evaluation focused on 35 Medicaid programs that covered HCBS
                   under the waiver for aged and/or disabled Medicaid beneficiaries residing
                   in ALFs. 38
                   The period of our review was 2009. 39 We identified the extent to which
                   the 35 programs covered HCBS under the 1915(c) waiver and the cost of

                   33
                      The Patient Protection and Affordable Care Act of 2010 (the Affordable Care Act),
                   P.L. 111-148, section 2601 (amending section 1915(h) of the SSA). See also 77 Fed.
                   Reg. 26362 (May 3, 2012) (proposed rule to revise 42 CFR § 430.25 to implement
                   section 2601 of the Affordable Care Act).
                   34
                      42 CFR § 441.304(b). See also 42 CFR § 430.25(h)(2)(i).
                   35
                      CMS, Interim Procedural Guidance for Conducting Community-Based Services
                   (HCBS) Waiver Programs, 2007, p. 3.
                   36
                      Ibid., p. 4.
                   37
                      OIG, Oversight of Quality of Care in Medicaid Home and Community-Based Services
                   Waiver Programs, OEI-02-08-00170, June 2012.
                   38
                      Although 37 States covered HCBS under the 1915(c) waiver, 2 States did not cover
                   HCBS during our period of review because their waiver programs were in the early
                   implementation stage.
                   39
                      Although the period of our review was 2009, we did not complete our site visits to
                   ALFs until March 2010.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                      6
                   those HCBS to Medicaid. We assessed Medicaid programs’ compliance
                   with selected Federal requirements relating to beneficiary health and
                   welfare and plans of care. For programs that specified additional
                   requirements in their approved 1915(c) waivers, we also assessed
                   compliance with those requirements.
                   However, we did not conduct a medical review to determine whether
                   HCBS were furnished in accordance with a plan of care, nor did we assess
                   the appropriateness of the HCBS.
                   Compliance with selected Federal and State requirements. For HCBS
                   covered under the 1915(c) waiver, we assessed the State Medicaid
                   programs’ compliance with (1) the provider standards and (2) the plan of
                   care requirements. For the latter, we focused on whether the plans of care
                   identified:
                        •   the medical and other services to be provided in ALFs,
                        •   the expected frequency of these services, and
                        •   the type of provider expected to furnish them.
                   For State Medicaid programs with approved 1915(c) waivers that
                   specified additional requirements relating to plans of care, we also focused
                   on whether they included:
                        •   the beneficiaries’ specific goals and interventions to meet them and
                        •   the signatures of beneficiaries or their representatives.
                   We also determined whether ALFs maintained (had on the premises) the
                   plans of care as mandated by State licensure or certification requirements.
                   Data Collection and Sample Selection
                   Survey of State Medicaid programs. We surveyed State Medicaid
                   programs in 49 States and the District of Columbia 40 to collect information
                   about HCBS furnished to beneficiaries who resided in ALFs. Our survey
                   determined that 35 programs covered HCBS for aged and/or disabled
                   beneficiaries in ALFs under 40 1915(c) waivers. 41 The information
                   collected from the 35 States includes, but is not limited to, what types of
                   HCBS are furnished, how many beneficiaries receive HCBS as ALF


                   40
                      For the purpose of this report, we include the District of Columbia as one of the States.
                   Arizona was excluded from the survey because Arizona operates its Medicaid program
                   under a section 1115 research and demonstration waiver.
                   41
                      Thirty-seven Medicaid programs covered HCBS for beneficiaries residing in ALFs;
                   however, claims data did not exist for two of those States during our period of review
                   because their waiver programs were in the early implementation stage. Some States
                   operate under more than one 1915(c) waiver; as a result, the number of waivers exceeds
                   the number of States with waivers.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                            7
                   residents, what the annual cost of furnishing those HCBS is, and whether
                   documentation of provider standards existed.
                   Medicaid claims data for HCBS furnished in ALFs. We collected
                   Medicaid claims data from 35 States that covered HCBS for beneficiaries
                   residing in ALFs. Using these data, we selected a purposive sample of
                   seven States with the highest numbers of beneficiaries receiving HCBS in
                   ALFs: Georgia, Illinois, Minnesota, New Jersey, Oregon, Texas, and
                   Washington. We then created a database of 2009 claims data from these
                   7 States, 42 containing 191,673 claims for 33,652 beneficiaries. Nationally,
                   the seven States represented 62 percent of all beneficiaries receiving
                   HCBS under the 1915(c) waiver in ALFs and accounted for 64 percent of
                   all 1915(c) waiver spending for HCBS furnished in ALFs over a 3-month
                   period.
                   State licensure or certification inspection reports for ALFs. To determine
                   the extent to which ALFs that furnish HCBS to Medicaid beneficiary
                   residents comply with State licensure or certification requirements, we
                   requested State survey agencies’ inspection reports. From the database of
                   Medicaid claims for the 7 States, we selected a simple random sample of
                   150 Medicaid beneficiaries (sampled beneficiaries) who resided in
                   141 ALFs and who received HCBS. 43 From the 7 States, we requested
                   inspection reports for these 141 ALFs, receiving complete reports for
                   124 of them. 44 Our analysis thus includes 124 ALFs in which 133 of the
                   sampled beneficiaries resided.
                   Plans of care developed by State Medicaid programs. To meet Federal
                   plan of care requirements, State Medicaid programs—directly or through
                   contact with other entities—develop a plan of care for each beneficiary
                   who is eligible for HCBS. To determine whether plans of care were
                   developed by the Medicaid programs 45 and whether they included (1) the
                   documentation specified under the Federal requirements for HCBS and
                   (2) the documentation specified by any additional requirements in the
                   programs’ approved 1915(c) waivers, we requested from the programs
                   (and received) plans of care for the 150 sampled beneficiaries.



                   42
                      The timeframe for ALFs to submit claims varies among States. Therefore, to collect
                   claims data from each State for a comparable 3-month period, we collected the data over
                   the period of January through June 2009.
                   43
                      Some ALFs had more than one resident Medicaid beneficiary.
                   44
                      We tried to collect complete inspection reports for the remaining 17 of the 141 ALFs.
                   However, the applicable Medicaid programs reported at the time of our review that
                   additional information was not available. Therefore, we excluded the inspection reports
                   for those 17 ALFs from our analysis.
                   45
                      The plan of care could be developed by or on behalf of the Medicaid program.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                         8
                   Plans of care developed by ALFs. Medicaid providers, such as ALFs,
                   independently develop their own plans of care for all residents. We
                   conducted site visits to determine whether ALFs had the plans of care that
                   are required by the State licensure or certification agencies. Specifically,
                   we visited ALFs in our purposive sample of 7 States and reviewed the
                   medical records of our 150 sampled beneficiaries.
                   Data Analysis
                   Our findings are based on analysis of the data we collected from:
                   (1) 35 Medicaid programs, (2) the State licensure or certification
                   inspection reports associated with 133 of the 150 sampled beneficiaries,
                   (3) plans of care from the Medicaid programs associated with the
                   150 sampled beneficiaries, and (4) plans of care from the ALFs associated
                   with those 150 sampled beneficiaries. Our findings related to compliance
                   with Federal requirements and State ALF licensure or certification
                   requirements are projected to the population of beneficiaries (33,652) who
                   resided and received HCBS in 4,811 ALFs in the 7 States. However, our
                   findings related to compliance with Medicaid programs’ additional
                   documentation requirements in their waivers are not intended to be
                   projected because those requirements do not apply to all of the seven
                   States. The estimates and 95-percent confidence intervals for the statistics
                   in this report are listed in Appendix A.
                   HCBS covered by State Medicaid programs. We analyzed State Medicaid
                   program survey data from the 50 States to identify which programs
                   covered HCBS for Medicaid beneficiaries residing in ALFs and to
                   determine the annual cost of furnishing those HCBS. 46 We determined the
                   latter by calculating the total annual cost that each State Medicaid program
                   reported paying to ALFs for HCBS furnished to resident beneficiaries.
                   Additionally, using the same survey data, we determined the number of
                   beneficiaries who resided in ALFs and the number of ALFs that furnished
                   HCBS to beneficiaries.
                   Documentation of provider standards. To determine whether provider
                   standards existed in the 35 State Medicaid programs that covered HCBS in
                   ALFs under 1915(c) waivers, we determined the number of States that
                   provided documentation of their provider standards.
                   State licensure or certification inspection reports. We analyzed State
                   survey agencies’ inspection reports for the 124 ALFs associated with

                   46
                     To obtain the most current information regarding the number of Medicaid programs
                   that covered HCBS in ALFs under the waiver, we collected this information directly from
                   programs. For example, although 37 programs had approved waivers to cover HCBS in
                   ALFs, only 35 programs had actual claims data or annual spending data for such HCBS
                   during the time of our review.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                       9
                   133 of the sampled beneficiaries. We calculated the percentage of
                   beneficiaries from the seven States who resided in ALFs that received at
                   least one citation from survey agencies. We also determined the number
                   of those ALFs that received citations for deficiency with regard to
                   (noncompliance with) multiple State licensure or certification
                   requirements governing the health and welfare of residents 47 or staff
                   qualifications and training requirements. 48
                   Plans of care developed by State Medicaid programs. To determine
                   whether plans of care developed by State Medicaid programs for HCBS
                   under the 1915(c) waiver included the documentation specified by Federal
                   requirements, we reviewed the State-developed plans of care for the
                   150 sampled beneficiaries. This included determining the number of plans
                   of care that identified:
                        •   the medical and other services to be provided in ALFs,
                        •   the expected frequency of these services, and
                        •   the type of provider expected to furnish them.
                   Of the seven States, five had 1915(c) waivers that required Medicaid
                   programs’ plans of care to include additional documentation. We
                   reviewed plans of care from these five States to determine whether they
                   included this additional documentation. All five States had 1915(c)
                   waivers requiring that plans of care include Medicaid beneficiaries’
                   specific goals and the interventions to meet them. 49 In addition, two of the
                   five States had waivers requiring that plans of care include the signatures
                   of the beneficiaries (or their designated representatives) as an
                   acknowledgment of the services and the conditions under which they are
                   to be provided. We determined the number of plans of care that included
                   the beneficiaries’ specific goals and the interventions and the number of
                   plans that included the signatures of the beneficiaries (or their designated
                   representatives).
                   Plans of care developed by ALFs. To determine whether ALFs had
                   developed the plans of care required for the sampled beneficiaries under
                   State licensure or certification requirements, we reviewed 150 beneficiary


                   47
                      ALFs are subject to State agency inspection regardless of whether the residents are
                   Medicaid beneficiaries.
                   48
                      Although ALFs were cited for deficiencies in (i.e., noncompliance with) a variety of
                   State licensure or certification requirements, we focused on deficiencies related to health
                   and safety.
                   49
                      “Goal” refers to the desired outcome of receiving the services outlined in the plan of
                   care—for example, living independently. “Interventions” refer to the steps that the ALF
                   will take if the beneficiary is not reaching the goal.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                            10
                   medical records during our onsite visits to ALFs. We then determined the
                   number of records that included such plans.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)          11
                   FINDINGS
                   In 2009, 35 State Medicaid programs reported that they
                   covered HCBS for beneficiaries in ALFs at an annual
                   cost of $1.7 billion
                   Thirty-five State Medicaid programs covered a variety of HCBS for
                   beneficiaries residing in ALFs at a total annual cost of $1.7 billion. 50
                   These HCBS were furnished to more than 54,000 beneficiaries residing in
                   approximately 12,000 ALFs. We visited different types of ALFs: private
                   residences where beneficiaries were taken care of by relatives; 51
                   single-family homes that served 6 or fewer individuals; and multiunit
                   residences, some of which served more than 200 individuals.
                   The HCBS covered included homemaker services, personal care services,
                   and home health aide services. All 35 programs reported that their
                   1915(c) waivers cover homemaker services and personal care services.
                   Twenty-five programs reported that their 1915(c) waivers also cover home
                   health aide services.
                   Less than 10 percent of Medicaid beneficiaries who received HCBS under
                   the 35 States’ 1915(c) waivers resided in ALFs. The cost of those HCBS
                   represented 12 percent of the total annual cost to furnish HCBS under the
                   1915(c) waiver. The average annual cost to furnish these services to
                   beneficiaries residing in ALFs is approximately $31,000 per beneficiary,
                   compared to $17,000 per beneficiary when the services are furnished in
                   other settings. The disparity in costs may result from beneficiaries’
                   receiving more HCBS when residing in ALFs. For example, beneficiaries
                   residing in ALFs may receive HCBS 24 hours a day, whereas those
                   services may be furnished on a limited basis in other settings, such as adult
                   day health centers or senior day care centers.




                   50
                      This figure represents the total collective annual costs reported by 35 States during our
                   period of review. Although two additional States also covered HCBS under their
                   respective waivers, their waiver programs were in the early implementation stage and
                   thus their annual costs to furnish HCBS were not yet available.
                   51
                      In some States, Medicaid beneficiaries resided in their own homes or in their families’
                   homes and received HCBS from family members. In most such cases, the beneficiary
                   was a parent being taken care of by his/her child(ren).

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                             12
                   Provider standards existed in the 35 States; however,
                   ALFs in the 7 States with the highest numbers of
                   beneficiaries receiving HCBS in ALFs did not always
                   comply with those standards, and plans of care did
                   not always comply with Federal requirements
                   State Medicaid programs provided assurances in their 1915(c) waiver
                   applications that they had standards for all types of providers—including
                   ALFs—that furnish HCBS under such waivers. Each of the 35 programs
                   had established provider standards, as required, and ALFs were State
                   licensed or certified as required. However, in the seven States that had the
                   highest number of beneficiaries receiving HCBS via the 1915(c) waiver
                   while residing in ALFs, most such beneficiaries were in ALFs that were
                   cited for one or more deficiencies with regard to (i.e., instances of
                   noncompliance with) State licensure or certification requirements. In
                   addition, our review of beneficiary medical records and plans of care in
                   the seven States found that the ALF-developed plans of care required
                   under State licensure or certification requirements did not always exist.
                   Furthermore, plans of care developed by State Medicaid programs did not
                   always comply with Federal requirements or with the additional
                   documentation requirements specified in the programs’ respective
                   approved 1915(c) waivers.
                   Provider standards existed in each of the 35 States
                   Provider standards existed in each of the 35 States that covered HCBS for
                   Medicaid beneficiaries in ALFs. Each of the 35 Medicaid programs
                   reported that, to comply with the Federal requirement that standards be
                   established for providers furnishing HCBS under the 1915(c) waiver, the
                   program uses the provider standards identified in its State licensure or
                   certification requirements. As part of the ALF licensure or certification
                   requirements, each State had specific standards for ALF employees based
                   upon the type and level of care provided to the beneficiary. For example,
                   to be licensed or certified as an ALF, a State may require that the ALF use
                   only personal care attendants who have 40 hours of training and are State
                   certified. The provider standards are part of the quality assurance
                   measures that survey agencies verify during their inspections of ALFs.
                   In the seven States, 77 percent of the Medicaid beneficiaries
                   resided in ALFs that were cited for one or more deficiencies
                   with regard to State licensure or certification requirements
                   In the seven States, citations from survey agency inspections indicate that
                   Medicaid programs covered HCBS furnished to resident beneficiaries in
                   ALFs that did not comply with all State licensure or certification
                   requirements. In 2009, 77 percent of beneficiaries receiving HCBS in

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)            13
                   ALFs resided in ALFs that were cited for a deficiency with regard to (i.e.,
                   an instance of noncompliance with) at least one State licensure or
                   certification requirement. 52 Sixty-eight percent of beneficiaries resided in
                   ALFs that received multiple citations.
                   The types of deficiencies cited could compromise the health and welfare
                   of the beneficiaries. For example, some of the deficiencies were related to
                   “failing to furnish services outlined in residents’ plans of care” and
                   “failing to dispense or administer medication as prescribed by a
                   physician.” Table 1 lists the percentage of beneficiaries residing in ALFs
                   cited for various deficiencies.
                   Table 1: Percentages of Medicaid Beneficiaries in the Seven States Who
                   Resided in ALFs Cited for Deficiencies 53



                        Types of Deficiency Citations That
                                                                           Percentage of Resident Medicaid Beneficiaries
                        ALFs Received
                        Failing to furnish services outlined in
                                                                                                                   23%
                        residents’ plans of care
                        Failing to dispense or administer
                        medication as prescribed by a                                                              23%
                        physician
                        Failing to complete initial assessments
                                                                                                                   18%
                        of residents
                        Lacking a current plan of care for at
                                                                                                                   16%
                        least one resident
                        Failing to ensure that staff had the
                        required education and training prior to                                                   16%
                        furnishing services to residents
                        Failing to ensure that medication was
                        administered by appropriately qualified                                                      8%
                        staff
                   Source: OIG analysis of seven States’ ALF inspection reports, 2010.




                   52
                      A Medicaid beneficiary resided in each of these facilities. However, because residents
                   of ALFs may consist both of Medicaid beneficiaries and nonbeneficiaries (i.e., private
                   payers), citations issued to these ALFs may not directly apply to the care of a Medicaid
                   beneficiary.
                   53
                      The percentage of sampled beneficiaries exceeds 100 percent because a sampled
                   beneficiary may have resided in an ALF that was cited for more than one type of
                   deficiency.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                                     14
                   In the seven States, records for 9 percent of Medicaid
                   beneficiaries receiving HCBS in ALFs did not include the
                   required plans of care
                   Independently of survey agencies’ inspection reports, our onsite review of
                   Medicaid beneficiaries’ records in the seven States indicated that ALFs did
                   not have required plans of care for all beneficiaries receiving HCBS in
                   ALFs. Although all ALFs had records for each beneficiary,
                   ALF-maintained records for 9 percent of beneficiaries in the seven States
                   lacked plans of care as required by State licensure or certification
                   requirements. 54 Of the records that lacked the required plans of care,
                   62 percent were from one State.
                   In the seven States, the plans of care for 42 percent of
                   Medicaid beneficiaries receiving HCBS in ALFs did not comply
                   with the Federal documentation requirements
                   Federal requirements for HCBS mandate that each plan of care developed
                   by a State Medicaid program identify (1) the medical and other services to
                   be provided, (2) their frequency, and (3) the type of provider to furnish
                   them. In the seven States, we collected plans of care for sampled
                   beneficiaries and reviewed them. This review found that each plan of care
                   identified the type of HCBS to be furnished and the type of provider to
                   furnish them. However, the plans of care for 42 percent of sampled
                   beneficiaries did not include the frequency of HCBS to be furnished, as
                   required. Of these plans of care, 73 percent were from one State.
                   In five of the seven States, plans of care did not comply with
                   the additional documentation requirements specified in the
                   State Medicaid programs’ approved 1915(c) HCBS waivers
                   State Medicaid programs may specify additional documentation
                   requirements in their approved HCBS 1915(c) waivers. 55 Of the seven
                   States, five had waivers that specified that the plans of care would identify
                   the beneficiaries’ specific goals and the interventions to meet them. The
                   purpose of this requirement is to ensure that beneficiaries receive the
                   appropriate care. However, in those 5 States, plans of care developed by
                   Medicaid programs for 69 of 105 sampled beneficiaries (66 percent) did
                   not meet this requirement. Also, two of the seven States had waivers that


                   54
                      We could not determine whether a deficiency citation was directly related to HCBS
                   furnished to a Medicaid beneficiary residing in the ALF. Therefore, we could not
                   determine where the results from the State survey agency inspections were mutually
                   exclusive of the results from our onsite reviews of the records of sampled beneficiaries.
                   55
                      In States that have 1915(c) waivers that impose additional requirements, Medicaid
                   programs must also meet these requirements to be considered in compliance with the
                   Federal waiver requirements.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                              15
                   specified an additional requirement for the plans of care to be signed by
                   beneficiaries or their representatives, as an acknowledgment of the
                   services and the conditions under which they are to be provided.
                   However, in those 2 States, plans of care for 12 of 25 beneficiaries
                   (48 percent) receiving these services in ALFs did not meet this
                   requirement. 56




                   56
                     Our findings related to compliance with Medicaid programs’ additional documentation
                   requirements in their 1915(c) waivers are not intended to be projected because they do
                   not apply to all seven of the States in our purposive sample.

Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                      16
                   RECOMMENDATION
                   During our period of review, 35 State Medicaid programs covered a
                   variety of HCBS for Medicaid beneficiaries residing in ALFs at a cost of
                   $1.7 billion. Provider standards existed in each of the 35 States, and the
                   ALFs were State licensed or certified, as required. However, some ALFs
                   in the seven States with the highest numbers of beneficiaries receiving
                   HCBS in ALFs were cited for deficiencies with regard to (i.e.,
                   noncompliance with) State licensure or certification requirements.
                   Seventy-seven percent of beneficiaries in these seven States resided in
                   ALFs that were cited for one or more deficiencies with regard to State
                   ALF licensure or certification requirements, and 9 percent of the sampled
                   beneficiaries’ records did not include plans of care required under State
                   licensure or certification. In addition, the plans of care for 42 percent of
                   beneficiaries in the seven States did not include the frequency of HCBS to
                   be furnished, as mandated by the Federal requirements. Furthermore, for
                   5 of the 7 States, 69 of 105 plans of care (66 percent) that we reviewed did
                   not include the beneficiaries’ goals and interventions as required by the
                   States’ approved 1915(c) waivers. For 2 of the 7 States, 12 of 25 plans of
                   care (48 percent) we reviewed did not include appropriate signatures as
                   required by the States’ approved 1915(c) waivers.
                   We recommend that CMS:
                   Issue guidance to State Medicaid programs emphasizing the
                   need to comply with Federal requirements for covering HCBS
                   under the 1915(c) waiver
                   Because waivers are broad and include a number of different settings in
                   which providers furnish HCBS, guidance should be issued specific to
                   HCBS furnished under the 1915(c) waiver to Medicaid beneficiaries in
                   ALFs. CMS could issue a State Medicaid Directors’ Letter emphasizing
                   that Medicaid programs must meet assurances in their 1915(c) waivers to
                   comply with Federal requirements for providers to furnish HCBS under
                   the waiver. The guidance should address the assurances related to State
                   licensure or certification requirements, Federal plan of care requirements,
                   and any additional requirements specified in the programs’ approved
                   waivers.




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)            17
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its written comments on our draft report, CMS concurred with our
                   recommendation to issue guidance to State Medicaid programs
                   emphasizing the need to comply with Federal requirements for covering
                   HCBS under the 1915(c) waiver. CMS stated that it will issue guidance
                   reminding States of their responsibilities in operating under all waivers
                   and specifically those serving Medicaid beneficiaries residing in ALFs.
                   However, on the basis of its initial analysis, CMS did not believe that such
                   guidance would require a State Medicaid Directors’ Letter, as OIG
                   suggested.
                   CMS stated that by December 2012, it will review with its technical
                   assistance contractors any opportunities to emphasize methods by which
                   States may better comply with all requirements and will authorize them to
                   do so. CMS also stated that in reviewing applications for waivers that
                   cover HCBS for Medicaid beneficiaries in ALFs, it will immediately begin
                   to examine quality measures for issues raised in this report.
                   We made technical corrections to the report on the basis of CMS’s
                   comments.
                   For the full text of CMS’s comments, see Appendix B.




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)            18
                      APPENDIX A
Confidence Intervals
                                                                                                    95-percent
  Estimate Descriptions                                                       Sample      Point
                                                                                                    Confidence
                                                                                Size   Estimate
                                                                                                       Interval
  Medicaid beneficiaries residing in assisted living facilities (ALF)
  that were cited for one or more deficiencies with regard to (i.e.,
  instances of noncompliance with) State licensure or certification              133     77.4%    68.5%–83.5%
  requirements

  Beneficiaries residing in ALFs that received multiple citations                133     68.4%    59.7%–76.2%

  Beneficiaries residing in ALFs that received citations for failing to
  furnish services outlined in residents’ plans of care                          133     22.6%    15.8%–30.6%

  Beneficiaries residing in ALFs that received citations for failing to
  dispense or administer medication as prescribed by a physician                 133     22.6%    15.8%–30.6%

  Beneficiaries residing in ALFs that received citations for failing to
  complete an initial assessment                                                 133     18.0%    11.9%–25.6%

  Beneficiaries residing in ALFs that received citations for lack of
  current plans of care for at least one resident                                133     15.8%    10.0%–23.1%

  Beneficiaries residing in ALFs that received citations for failing to
  ensure that staff had the required education and training prior to             133     15.8%    10.0%–23.1%
  furnishing services to residents

  Beneficiaries residing in ALFs that received citations for failing to
  ensure that medication was administered by appropriately                       133      7.5%    3.7%–13.4%
  qualified staff

  Medicaid beneficiaries receiving home and community-based
  services (HCBS) in ALFs that did not have the required plans of                150      9.2%    4.2%–15.7%
  care

  Plans of care for Medicaid beneficiaries receiving HCBS in ALFs
  that did not comply with Federal documentation requirements                    150     42.0%    33.9%-50.3%

Source: Office of Inspector General analysis of documentation review, 2010.




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                               19
                    APPENDIXB
                    Agency Comments




               DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers   tor Med1care & Medicaid Servicos
               - ·-----------------·----
                                                                                        AdmiJlistrator
                                                                                        Wa sllinglon. DC 20?.01




            DATE:               SEP ! 5 2Clli
            TO: 	          Daniel R. Levinson
                           lnspecio! General
                                              /S/
            FROM: 	        Marilyn Tavenner
                           Acting A'dmillistrator

            SUB.JECT: 	 Office of Inspector Clcneral (01(]) Draft Report: "I lome and Community-Based
                        Services in Assisted Living Facilities" (OEI-09-08-00360)


            Thank you for the opportunity to review and comment on the OIG dratt report entitled, "Home
            and Community-Based Services in Assisted Living Facilities" (OEl-09-08 -00360). The purpose
            of this report was to better understand Medicaid home and community-based services (HCBS)
            provided in assisted living facilities (ALFs), the cost associated with those s.:rvices, and the
            extent to which those HCRS are furnished in compliance with federal and state requirements.

            Under section 1915(c) of the Social Security Act, the Centers for Medicare & Medicaid Services
            (CMS) may waive certain Medicaid requirements to enable state Medicaid programs to cover
            HCBS for individuals who have institutional levels of need. States may elect to offer l 915(c)
            waiver HCBS to Medicaid beneficiaries residing in ALFs. Medicaid does not reimburse for
            room and board; rather, i.t covers long-tenn care services and supports that ALF residents
            require.

            OIG Findings

            In 2009, 35 state Medicaid programs reported that·- under the l915(c) waiver authority .._ they
            covered a variety of HCBS for Medicaid beneficiaries in ALFs at an annual cost of $ I. 7 billion.
            Provider standards existed in each of the 35 States as mandated by the federal requirements;
            however, OlG reports that ALfs in the seven states with the highest number of beneficiaries
            receiving HCBS in ALFs did not always comply wi th those standards, and plans of care did not
            always comply with federal requirements. In these seven states, 77 percent of ! 33 waiver
            enrollees sampled received HCBS under the 1915(c) waiver in ALFs that were cited for
            deficiencies with regard to at least one state licensure or certification requirement. Nine percent
            of !50 beneficiaries sampled had records that did not include plans of care required by the state
            licensure or certification requirements. Furthermore, 42 percent of the plans of care mandated by
            the federal requirements did not include the frequency ofHCBS furnished , as required. Five of
            the .~even states had specified additional optional requirements in the 19l5(e) waiver for plans of
            care to identify the beneficiaries' specific goals and the interventions to meet those goals. In




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)                                                    20
Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)   21
Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)   22
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Loul Alvarez served as the team leader for this study, and
                   Veronica Gonzalez served as lead analyst. Other Office of Evaluation and
                   Inspections staff from the San Francisco regional office who conducted
                   the study include Rob Gibbons, Camille Harper, Scott Hutchison,
                   Christina Lester, and Marcia Wong. Central office staff who provided
                   support include Kevin Farber, Kevin Manley, and Christine Moritz.
                   We would also like to acknowledge the contributions of other Office of
                   Evaluation and Inspections regional office staff, including Sarah Ambrose,
                   Jaime Durley, Starr Kidda, Abigail Lopez, Rachel Siman, and
                   Holly Williams.




Home and Community-Based Services in Assisted Living Facilities (OEI-09-08-00360)            23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
